OFFICE OF INSPECTOR GENERAL


AUDIT OF THE MANAGEMENT
OF GRANTS AWARDED BY
USAID‟S OFFICE OF AMERICAN
SCHOOLS AND HOSPITALS
ABROAD
AUDIT REPORT NO. 9-000-12-002-P
MARCH 19, 2012




WASHINGTON, D.C.
Office of Inspector General


March 19, 2012


MEMORANDUM

TO:                  DCHA/ASHA, Director, Tamra Halmrast-Sanchez

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Audit of the Management of Grants Awarded by USAID‟s Office of American
                     Schools and Hospitals Abroad (Report No. 9-000-12-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

This report contains seven recommendations to strengthen the ability of the Office of American
Schools and Hospitals Abroad to manage its grants. On the basis of information provided by
your response to the draft report, we determined that final action has been taken on four
recommendations—2, 3, 6, and 7, while management decisions have been reached on the
remaining three recommendations—1, 4, and 5. Please provide the Audit Performance and
Compliance Division of USAID‟s Office of the Chief Financial Officer with evidence of final action
to close the three open recommendations.

Thank you for the cooperation and courtesy extended to the audit staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Control Environment Did Not Promote Sound Grants Management ...................................... 4

     Policies and Procedures Were Outdated and Conflicted With Best Practices ........................ 5

     Grants Information Management System Was Error-Prone ................................................... 9

     Guidance on Grant Monitoring Was Limited ........................................................................ 10

Evaluation of Management Comments.................................................................................. 13

Appendix I – Scope and Methodology ................................................................................... 15

Appendix II – Management Comments .................................................................................. 17

Appendix III – Analysis of Requests for Applications .......................................................... 21

Abbreviations

The following abbreviations appear in this report:

ADS                  Automated Directives System
AOTR                 agreement officer‟s technical representative
ASHA                 American Schools and Hospitals Abroad
CFO                  Chief Financial Officer
CIGIE                Council of Inspectors General on Integrity and Efficiency
GAO                  Government Accountability Office
OIG                  Office of Inspector General
OMB                  Office of Management and Budget
RFA                  request for applications
TEC                  technical evaluation committee
SUMMARY OF RESULTS
The American Schools and Hospitals Abroad (ASHA) program provides grants to
competitively selected private, nonprofit universities and secondary schools, libraries,
and medical facilities outside the United States. The ASHA program currently manages
an annual budget of $20 million and awards approximately 35 to 45 grants every year
under Section 214 of the Foreign Assistance Act, codified at 22 U.S.C. 2174. Since the
inception of the program, ASHA has provided more than $800 million to approximately
200 institutions in more than 60 countries.

Although most USAID programs focus on development assistance and humanitarian aid
objectives, Congress created ASHA for different purposes. In fact, the ASHA program
was founded in 1959, predating the creation of USAID by 2 years. As explained in
House Report No. 92-380, July 26, 1971, page 15:

       The primary purpose of Section 214 … was not to help take care of the
       educational and health needs of foreign countries but to demonstrate to
       their people, on a selected basis, American ideas, practices, and
       advances in the fields of education and medicine.

USAID has attempted to accommodate these different purposes through a policy
decision to exempt ASHA from some USAID regulations. In the absence of clear,
written exclusions and exemptions from various policies, procedures, and regulations,
the audit team applied industry best practices as the primary criteria to evaluate the
ASHA program. Specifically, the audit team used key grants management principles
published by the Government Accountability Office (GAO) and the Council of Inspectors
General on Integrity and Efficiency (CIGIE). The Office of Inspector General (OIG)
conducted this audit to determine whether USAID‟s ASHA office managed its grants
portfolio in accordance with industry best practices.

The audit concluded that the ASHA office did not manage its grants portfolio in
accordance with industry best practices. The ASHA program had several significant
deficiencies in internal control, specifically in its control environment, policies and
procedures, information management, and monitoring practices. Deficiencies included
the following:

   The control environment did not promote sound grants management (page 4).
   Reporting lines and staff responsibilities were poorly defined.

   Grants management policies and procedures were outdated (page 5). The office‟s
   manual of policies and procedures was 19 years old and conflicted with best
   practices.

   The grants information management system was error-prone (page 9). Data entered
   was not validated periodically, and the system did not alert managers to deadlines
   and other urgent information.

   Guidance on grant monitoring was limited (page 10). The frequency with which site
   visits are conducted, the method for selecting which grantee sites to visit, and the


                                                                                      1
   assignment of responsibility for monitoring grants should have been established in
   guidance and were not.

So that it can manage its grants efficiently, effectively, and responsibly, we recommend
that the ASHA office:

1. Review its control environment and present the Bureau for Democracy, Conflict and
   Humanitarian Assistance (in which the ASHA office resides) with a plan for
   successfully managing the program‟s grant portfolio and achieving its program
   objectives (page 4).

2. Clearly define grants management authorities and responsibilities and formally
   delegate them to appropriate staff to serve as agreement officer‟s technical
   representatives (AOTRs) (page 4).

3. Determine, in conjunction with the Office of General Counsel, which federal
   regulations and Agency directives apply to the ASHA program and document any
   exclusions or exemptions (page 9).

4. Develop and implement policies and procedures that are consistent with applicable
   federal regulations, Agency directives, and best practices to promote adequate
   grants management (page 9).

5. Implement a grants information management system that will enable the office to
   capture accurate, timely, and useful information to facilitate proper grants
   management (page 10).

6. Develop and implement a plan to validate the data in its grants information
   management system periodically for completeness and accuracy (page 10).

7. Develop and implement a monitoring plan that (1) clearly outlines who can be
   designated as an AOTR and defines the roles and responsibilities of the AOTRs, (2)
   systematically identifies the most appropriate grantees for site visits using
   programmatic and financial risk factors, and (3) actively solicits help from overseas
   missions to monitor and evaluate grantee performance through site visits and liaison
   with the recipients (page 11).

Detailed findings follow. The audit scope and methodology are described in Appendix I,
and USAID‟s comments appear in Appendix II of the final report. Our evaluation of
management comments is on page 13 of the report.




                                                                                      2
AUDIT FINDINGS
The Federal Mangers‟ Financial Integrity Act of 19821 requires GAO to issue standards
for internal control in government. This act, along with other laws, prompted GAO‟s
Standards for Internal Control in the Federal Government. GAO states that “internal
control is a major part of managing an organization. It . . . helps government program
managers achieve desired results through effective stewardship of public resources.”
According to GAO, internal control consists of several components including an
organization‟s control environment, policies and procedures, information and
communications, and monitoring. The importance of internal controls and their
application to effective grants management are also discussed in “Managing Grants for
Success,” an article published by CIGIE2 in the Fall/Winter 2008/2009 issue of the
Journal of Public Inquiry.

The standards and best practices outlined by GAO and CIGIE, as well as USAID‟s
policies and procedures and federal regulations, were the criteria used to evaluate
ASHA‟s grants management practices throughout the stages of the grant life cycle, as
depicted below. Using these standards and best practices, the audit identified several
weaknesses in ASHA‟s internal control, specifically in its control environment, policies
and procedures, information management, and monitoring practices.

                                       Grant Life Cycle




    Source: GAO, “Grants Management: Additional Actions Needed to Streamline and Simplify
    Processes,” April 18, 2005.

1
  Federal Managers‟ Financial Integrity Act of 1982, Public Law No: 97-255., codified at 31 U.S.C.
3512 note, Section 102(b)(3).
2
  CIGIE is an independent government entity established to address integrity, economy, and
effectiveness issues that transcend individual government agencies.

                                                                                                3
Control Environment Did Not
Promote Sound Grants
Management
“Managing Grants for Success” states: “The core of any entity or operation is its people
and the environment in which they operate.” This statement is supported by GAO‟s
assertion that

       A good internal control environment requires that the agency‟s
       organizational structure clearly define key areas of authority and
       responsibility and establish appropriate lines of reporting. The control
       environment is also affected by the manner in which the agency
       delegates authority and responsibility throughout the organization.

Contrary to industry best practices, the ASHA program did not establish a control
environment that fostered sound grants management. Staff responsibilities and
reporting lines (reporting relationships) were often poorly defined. No single staff
member was assigned to oversee the entire grants management process. Sometimes
the responsibilities of ASHA contactors stretched beyond their defined boundaries, as
contractors provided verbal or written approvals to grantees without first consulting
direct-hire staff.

Outside the ASHA office, USAID espouses assigning AOTRs3 to assist in the technical
monitoring or administration of an award. AOTRs perform a variety of duties, including
working as part of a team with the agreement officer—who for ASHA was the director—
to ensure that USAID manages its assistance funds prudently. The ASHA office did not
formally assign AOTRs to manage its grants.

As outlined in “Managing Grants for Success,” the control environment is the foundation
of a sound grants management program. Without a strong control environment, the
ASHA office may not be able to manage its 200 active grants prudently while
concurrently analyzing and awarding new grants. Therefore, we make the following
recommendations to strengthen the ASHA control environment and to formally assign
grants management responsibilities.

    Recommendation 1. We recommend that the Office of American Schools and
    Hospitals Abroad review its control environment and present the Bureau for
    Democracy, Conflict and Humanitarian Assistance with a plan for successfully
    managing the program’s grant portfolio and achieving its program objectives.

    Recommendation 2. We recommend that the Office of American Schools and
    Hospitals Abroad clearly define grants management authorities and
    responsibilities and formally delegate them to appropriate staff to serve as
    agreement officer’s technical representatives.




3
  As of January 1, 2012, USAID replaced the term “AOTR” with “AOR” (agreement officer‟s
representative) to align with changes to the Federal Acquisition Regulation.

                                                                                      4
Policies and Procedures Were
Outdated and Conflicted With
Best Practices
According to GAO, “internal control activities help ensure that management‟s directives
are carried out.” These control activities are defined by the policies and procedures of
an organization, such as USAID‟s Automated Directives System (ADS). The CIGIE
journal article “Managing Grants for Success” advises:

       Written policies and procedures must be established and executed to
       help ensure that actions identified by management (or by law) as
       necessary to address risks are effectively carried out.

The unique nature of the ASHA program, with its various exceptions and exclusions,
made it difficult to determine which federal regulations and USAID policies and
procedures applied to the program. USAID‟s General Counsel in June 1982 issued a
memorandum stating that ASHA grants are not governed by Office of Management and
Budget (OMB) Circular A-1104 since the grant funds only pass through the U.S.-based
sponsoring organizations, with foreign universities and hospitals being the ultimate
recipients of the grants. At that time, OMB Circular A-110 did not apply to foreign
organization recipients.

Lacking appropriate Agency and federal guidance, in 1993 the ASHA office developed
its own policies and procedures manual. The manual set forth the management and
administrative practices to be adopted by the ASHA office to manage the grant program
appropriately. With changes in Agency standard procedures and applicable laws over
nearly 20 years, many of the procedures drafted by ASHA are now contrary to best
practices in grants management. As a result, the ASHA office has not been operating
according to sound grants management policies and procedures. Deviations occurred in
the following practices associated with prudent grants management:

    Annual announcement of grant requests. The ASHA procedures manual states that
    “ASHA does not issue invitations for applications to the program or provide any type
    of public notice routinely on the intent to make grants.” This guidance differs greatly
    from current requirements outlined in ADS 303.3.5, “Public Notice and Advertising.”
    That section states that “USAID has a responsibility to notify the public of its funding
    priorities in assistance programs. The Agency generally fulfills this responsibility by
    announcing assistance programs in the Catalog of Federal Domestic Assistance and
    at Grants.Gov.” USAID uses a request for applications (RFA) process to solicit and
    provide assistance and RFAs are issued according to an established format
    described in ADS 303.3.5.2, “Request for Applications.”

    Although not required to comply with the format prescribed in ADS, ASHA did
    incorporate a majority of the RFA format outlined in the Agency guidance. Still, the
    audit team compared ASHA‟s published announcement with guidance found in ADS
    303.3.5.2 and determined that 8 of the 27 RFA provisions (listed in Appendix III)


4
  OMB Circular A-110 establishes uniform administrative requirements for federal grants and
agreements awarded to institutions of higher education, hospitals, and other nonprofit
organizations.

                                                                                          5
were absent from the ASHA annual announcements. Additionally, the ASHA office
never used the federal Web site Grants.gov to announce the availability of grants.

By not announcing ASHA grants effectively, the program may deny qualified
applicants the opportunity to apply for a grant because they are unaware of the
availability of the grants. Additionally, if an RFA does not include all grant
requirements and evaluation criteria, potential applicants (1) may not know precisely
what is required of them and will not have the requisite information to judge whether
it is in their best interest to incur the costs associated with applying for a grant, or (2)
may incur the costs, but provide insufficient information in their applications.

During the audit, OIG communicated these deficiencies to the ASHA office. As a
result, on July 18, 2011, the office announced a new process for advertising its
RFAs, which will now be announced on Grants.gov. Future RFAs will include all the
provisions required by ADS.

Grant review and selection procedures. OMB Memorandum M-09-26 discusses
federal agencies use of private sector contractors to deliver important services to
citizens. The memorandum states:

       Agency management practices must recognize the proper role of
       each sector‟s labor force and draw on their respective skills to help
       the government operate at its best. Current policies and practices
       must be improved so that agencies consistently identify the proper
       role of each sector and achieve the best mix of public and private
       labor resources to serve the American people.

To this end, Agency policy in ADS 303.3.6.4, “Reviewing and Evaluating
Applications,” states that USAID direct-hire and contract employees must make up a
majority of the members on the technical evaluation committee (TEC), the committee
that evaluates the applications. According to this ADS chapter, USAID should
impartially review and evaluate all grant applications to make objective
recommendations for grant awards. The procedures followed by the ASHA office
deviate from these requirements. The 1993 ASHA procedures manual, Section 2-
2.3(d), specifies that the office will seek input from four to six recognized,
professional, external reviewers of grant proposals. The ASHA program did not
include any USAID employees on its review committee. The entire group was
composed of external reviewers selected by the contractor.

Furthermore, ADS 303.3.6.4.d states that USAID officers “must take steps to ensure
that members of the TEC, both USAID staff and outside evaluators, do not have
conflicts of interest with the organizations whose applications are being reviewed.”
ASHA‟s procedures manual omitted this important requirement. As a result, beyond
requiring reviewers to sign a statement that they did not have a conflict of interest
with any of the applicants, the ASHA program did not adequately verify the
reviewers‟ independence.

Without requiring that TEC members include USAID employees and verifying that
the reviewers had no potential conflicts of interest that could bias their evaluation, the
ASHA office introduced the risk that applications may not have been evaluated
adequately and fairly. Moreover, without sufficient controls to provide fair and open


                                                                                          6
competition for the grant funds, the office significantly increased the risk of fraud,
waste, and abuse related to the ASHA program.

Preaward survey. ADS 303.3.9.1.b states that a preaward survey “examines the
applicant„s internal systems to determine whether the prospective recipient has the
necessary organization, experience, accounting and operational controls, and
technical skills—or the ability to obtain them—to achieve the objectives of the
program.”

The ASHA procedures manual, Section 2-3.1(d), describes the preaward survey but
does not outline the specific contents of the survey process. However, USAID
guidance describes in detail the standards to be applied in preaward surveys. ADS
303.3.9.1.c states that the preaward survey should be conducted by a team of
experts.

A consultant, hired under a subcontract, created and conducted ASHA‟s preaward
survey process. The ASHA office did not provide specific guidance and criteria for
the subcontractor to follow, nor were specific preaward survey requirements and
evaluation standards included in the contract and subcontract. The standards used
by the consultant to evaluate applicants‟ ability to manage a grant were derived from
the consultant‟s own professional knowledge and not from the ADS standards.

Without providing contractors clear guidance on preaward survey criteria, the ASHA
office risks overlooking critical aspects of prospective recipients‟ organization.
Furthermore, not providing specific guidance may create inconsistencies in the
quality, applicable standards, and thoroughness of evaluations should a new
consultant conduct the pre-award survey.

Memorandum of negotiation. As stated in ASHA procedures manual 2-3.2(a), once
the preaward requirements have been satisfied, the office records its findings
regarding project feasibility, technical and management capability, reasonableness of
estimated costs, the financial plan, and any other relevant issues and justifies them
in the negotiation memorandum. The memorandum of negotiation documents the
basis for certain terms and conditions of the grant.

ASHA staff stated that the practice of issuing memorandums of negotiation for new
grants stopped in the early to mid-1990s, only to start again in fiscal year 2010. By
not producing a memorandum of negotiation, USAID cannot adequately address
potential problems—related to applicants‟ financial resources, ability to meet award
conditions, and record of performance—before making the award, thereby incurring
risk.

Annual audits. In accordance with OMB Circular A-133, U.S.-based organizations
that expend $500,000 or more in federal funding during their fiscal year must have a
single or program-specific audit conducted for that year. However, A-133 audits
were not being conducted on schedule, resulting in 14 past-due required A-133
audits. ASHA staff members were not enforcing the requirement to perform A-133
audits. Even for those grants that had completed A-133 audits, ASHA staff members
did not use the audit findings to make improvements to grants management, nor did
they use the audit results in making subsequent grant decisions.



                                                                                    7
   Without an annual A-133 audit, there is no independent opinion as to whether the
   grantees complied with laws, regulations, and the provisions of contracts or grant
   agreements—information that could have a direct and material effect on each major
   program. Moreover, without these audits, program funds are at increased risk of
   fraud, waste, and abuse.

   Closeout procedures. The Code of Federal Regulations (22 CFR 226.71, a subpart
   of “Administration of Assistance Awards to U.S. Non-governmental Organizations”)
   states that “recipients shall submit, within 90 calendar days after the date of
   completion of the award, all financial, performance, and other reports as required by
   the terms and conditions of the award.” This regulation is reiterated in ASHA‟s
   procedures manual as well as in supplemental ADS guidance: “Guidance on
   Closeout Procedures for A&A [Acquisition and Assistance] Awards—An Additional
   Help Document for ADS Chapters 302 and 303.”

   Despite such guidance, the ASHA program was not performing grant closeout
   procedures on schedule, as evidenced by a large number of expired grants still
   awaiting final closeout. As of May 17, 2011, 64 of 378 completed grants (17 percent)
   had not been properly closed out, and approximately $6 million in ASHA grant funds
   sat idle awaiting deobligation. Moreover, according to USAID‟s Phoenix accounting
   system, ASHA grants awaiting closeout date back as far as 1996.

   Without proper closeout procedures, AHSA has put federal funds at risk. The Agency
   cannot confirm that the recipient complied with all applicable terms and conditions of
   the grant award—including the delivery of all required reports and the proper
   disposition of any government property—and that the AOTR has no objection to the
   closeout of the award file. Without exercising prudent and punctual financial
   management, unused program funds cannot be identified, recouped through
   deobligation, and used to support other potential requirements.

The reason for the numerous gaps in ASHA‟s grants management process was the lack
of clear, up-to-date policies and procedures that were communicated to and adopted by
the ASHA staff. As discussed, the most recent ASHA policies and procedures manual
was drafted in 1993 and has not been revised to include new regulations, procedures,
systems, and technologies. As a result, ASHA staff members were reluctant to
reference and adhere to the outdated information and instead opted to create and follow
their own operating procedures, leading to gaps and inconsistencies in the management
of grants.

Without clear, up-to-date policies and procedures, the ASHA office is exposed to several
risks in its grants management life cycle. ASHA will not be able to ensure that grantees
are using the funds properly and achieving the purpose of the grant award. The lack of
proper internal controls in the announcement and selection stages of the grant process
reduces full and open competition and limits the ability of some organizations to receive
grants. This effect is illustrated in a pattern of repeated awards to the same recipients.
The ASHA program has approximately 200 active grants under management per year
but has assisted only 237 institutions throughout its 52-year history. Had the office
limited grant awards to new applicants, the ASHA program could have assisted
hundreds of other institutions.




                                                                                        8
    Recommendation 3. We recommend that the Office of American Schools and
    Hospitals Abroad, in conjunction with the Office of General Counsel, clearly
    determine which federal regulations and Agency directives apply to the American
    Schools and Hospitals Abroad program and document any exclusions or
    exemptions.

    Recommendation 4. We recommend that the Office of American Schools and
    Hospitals Abroad develop and implement policies and procedures that are
    consistent with applicable federal regulations, Agency directives, and best
    practices to promote adequate grants management.

Grants Information
Management System Was
Error-Prone
According to the CIGIE journal article “Managing Grants for Success”:

        Information and communications systems enable the grantor agency and
        grantees to capture and exchange the information needed to manage the
        grant program. In order to determine if a grant is achieving what is
        intended, those responsible for the grant program must have the right
        information at the right time, and it must be reliable.

The Chief Financial Officer‟s (CFO) Act of 1990 discusses the importance of accurate
financial information. A key purpose of the CFO Act is to “provide for the production of
complete, reliable, timely, and consistent financial information for use by the executive
branch of the Government and the Congress in the financing, management, and
evaluation of Federal programs.” The CFO Act also provides for the improvement of
“systems of accounting, financial management, and internal controls to assure the
issuance of reliable financial information to deter fraud, waste, and abuse of Government
resources.”5

Contrary to best practices for grants management and the CFO Act, ASHA has not
maintained accurate information and has not implemented systems that enable the office
to capture and exchange the information needed to manage program grants properly.
ASHA‟s internal grants management system was error-prone, containing not only
inaccurate data, but also invalid entries that were never detected and corrected. In fact,
contractor personnel who maintained ASHA‟s grants management information system
estimated that the system was only 80 percent accurate. In addition to inaccurate data,
the audit also noted the following deficiencies in ASHA‟s grants management system:

    The naming convention for grant recipients was inconsistent and caused duplication
    of records, mismatched information, and improper filing.

    Routine data verification was not performed to ensure the integrity and reliability of
    the information in its systems.


5
 Chief Financial Officers (CFO) Act of 1990, Public Law 101-576, codified at 31 U.S.C. 501 note,
Section 102(b)(3).

                                                                                              9
   The grants management system did not have an effective means of alerting ASHA
   officers about issues that required updates or attention.

   There was no methodology or system to communicate that financial reports were
   overdue or to notify staff that administrative action was required.

Several factors contributed to ASHA‟s poor maintenance of information. First, ASHA‟s
grants information management system was antiquated and included data errors that
had accumulated through the years. The ASHA office recognized shortcomings with its
grants information management system and obtained a software license for a new
system. Although the license started in 2008, implementation of the system had not
been fully implemented at the time of our audit. Second, the ASHA grants information
management system was not being consistently used by all program employees. For
example, the off-site contract engineer could not access ASHA‟s central grants
management system and thus maintained an independent system at his office in Florida.
This independent recording system did not interact with ASHA‟s grants management
system, and changes to either system had to be made manually.

As a result of poor maintenance of information the ASHA office could not accurately
track grant funds. Auditors detected a discrepancy of nearly $9 million in grant balances
as of March 31, 2011, between ASHA‟s system and the records of 60 grantees we
contacted. By making grant decisions with inaccurate information, ASHA risks awarding
grants to undeserving or unqualified applicants. Furthermore, with inaccurate data,
opportunities for fraud, waste, and abuse increase.

   Recommendation 5. We recommend that the Office of American Schools and
   Hospitals Abroad implement a grants information management system that will
   enable the office to capture accurate, timely, and useful information to facilitate
   proper grants management.

   Recommendation 6. We recommend that the Office of American Schools and
   Hospitals Abroad develop and implement a plan for periodically validating the
   data in its grants information management system for completeness and
   accuracy.

Guidance on Grant
Monitoring Was Limited
According to the CIGIE journal article, “Managing Grants for Success,” an effective
grants management program must

       monitor the entire process to determine if the controls are working as
       intended. . . . Since grant funds are spent by entities outside the federal
       government, appropriate and clear agency guidance, monitoring, and
       oversight of grantees are key to providing both financial and performance
       accountability.

The office‟s monitoring plan should evaluate “the items that comprise the essential
framework for grants management,” including people, policies, procedures, and risk
assessment.


                                                                                         10
According to ADS 303.2.f, after an award the AOTR

       is the person designated in writing by the AO [agreement officer] who will
       administer certain aspects of the assistance instrument. The AOTR . . .
       makes the achievement of program objectives easier by monitoring and
       evaluating the recipient and its performance during the award.

       The AOTR will:

           Maintain contact, including through site visits and liaison, with the
           recipient.

           Review and analyze reports and monitor reporting requirements.

           Verify timely performance.

           Ensure compliance with the terms and conditions of the award. . . .

           Monitor the recipient's financial reports to ensure that the recipient
           makes progress toward meeting the required cost sharing, when
           applicable.

Despite USAID‟s guidance, the ASHA office has not established clear guidance on
monitoring and oversight of grants. For example, site visits are not being conducted in a
consistent and systematic manner. The majority of the grants are being monitored from
Washington, D.C., through correspondence with the grantees. Of the 200 grants the
ASHA manages every year, the office conducts only a limited number of site visits,
approximately five per year. Furthermore, the ASHA office lacks a methodology to
evaluate grantee risk and systematically identify grantees for site visits. Certain sites
apparently were selected because of the favorability of the location and not because of
the risk associated with the grant.

ASHA‟s limited financial and human resources are the major reasons for the lack of
grant monitoring. The ASHA program funds activities all across the globe, sometimes in
countries where USAID does not have local missions, such as China, Italy, and Greece.
The task of monitoring ASHA‟s portfolio of active grants in various locations is a
challenge for an office with only six full-time employees. The ASHA office should
consider soliciting assistance from local or regional USAID missions or even the
Department of State. This could significantly increase the amount of contact with the
recipients; provide additional observational evidence regarding compliance with the
terms of the grant; and strengthen the overall purpose of the ASHA program, which is to
foster interchange, mutual understanding, and favorable relations with the United States.

Sound monitoring practices are necessary to determine whether programs are working
as intended and achieving their desired results. Without proper monitoring, the ASHA
program may be unable to provide financial and performance accountability, creating
opportunities for fraud, waste, and abuse.

   Recommendation 7. We recommend that the Office of American Schools and
   Hospitals Abroad develop and implement a monitoring plan that (1) clearly
   outlines who can be designated as an agreement officer’s technical

                                                                                      11
representative and defines the roles and responsibilities of the representatives,
(2) systematically identifies the most appropriate grantees for site visits using
programmatic and financial risk factors, and (3) actively solicits help from
overseas missions to monitor and evaluate grantee performance through site
visits and liaison with the recipients.




                                                                                    12
EVALUATION OF
MANAGEMENT COMMENTS
The Office of Inspector General has reviewed ASHA‟s response to the draft report and
determined that final action has been taken on four of the seven recommendations—2,
3, 6, and 7—while management decisions have been reached on the remaining three
recommendations—1, 4, and 5.           Our evaluation of comments on the seven
recommendations is shown below.

Recommendation 1.         ASHA officials agreed to review the program‟s control
environment and present the Bureau for Democracy, Conflict and Humanitarian
Assistance with a plan for successfully managing the program‟s grant portfolio and
achieving its program objectives. The ASHA office has reviewed and is adjusting its
structure and is realigning duties to meet program needs. Furthermore, ASHA is
working with the bureau‟s senior leadership to secure additional resources for the office.
ASHA‟s organizational review and restructuring are expected to be completed by July
31, 2012. We conclude that a management decision has been reached on this
recommendation.

Recommendation 2. ASHA officials agreed to clearly define grants management
authorities and responsibilities and formally delegate them to appropriate staff to serve
as AOTRs. To that end, ASHA reorganized its grants management responsibilities and
authorities and assigned two staff members to be AOTRs through signed delegation
letters. We conclude that final action has been taken on this recommendation.

Recommendation 3. ASHA officials agreed with the recommendation and determined,
in conjunction with the Office of General Council, which federal regulations and agency
directives apply to their program and document any exclusions or exemptions. The
ASHA office will incorporate these regulations in its revised ASHA procedures and policy
handbook. We conclude that final action has been taken on this recommendation.

Recommendation 4. ASHA officials agreed to develop and implement policies and
procedures that are consistent with applicable federal regulations, Agency directives,
and best practices to promote adequate grants management. The office anticipates
updating policies and procedures by June 30, 2012. Furthermore, ASHA developed a
plan to complete required audits and surveys by July 30, 2012, and to close out expired
grants and deobligate any excess funds by September 30, 2012. We conclude that a
management decision has been reached on this recommendation.

Recommendation 5. ASHA officials agreed to implement a grants management system
that will enable the office to capture accurate, timely, and useful information to facilitate
proper grants management. The new data management system is to be reviewed and
corrections made by June 30, 2011. We conclude that a management decision has
been reached on this recommendation.

Recommendation 6. ASHA officials agreed to develop and implement a plan to
validate the completeness and accuracy of information in the program‟s grants
management system periodically. As a result, ASHA developed and implemented


                                                                                          13
protocols for entering information and validating the information in the system monthly.
We conclude that final action has been taken on this recommendation.

Recommendation 7. ASHA officials agreed to develop and implement a monitoring
plan that clearly (1) outlines who can be designated as an AOTR and their roles and
responsibilities, (2) systematically identifies the most appropriate grantees for site visits
using programmatic and financial risk factors, and (3) actively solicits help from overseas
missions to monitor and evaluate grantee performance through site visits and liaison
with the recipients.

To address the recommendation, ASHA has, among other things, designated AOTRs;
held meetings with appropriate staff on roles and responsibilities; developed a process
for identifying grant projects requiring monitoring visits based on various risk factors; and
has begun seeking assistance from other USAID bureaus, overseas missions, and other
U.S. Government entities to provide additional monitoring. We conclude that final action
has been taken on this recommendation.




                                                                                          14
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions. As of May 18, 2011, USAID records showed
that there were 473 ASHA grant awards in the Agency‟s Phoenix financial system with total
obligations of $317 million and disbursements totaling $274 million.

The objective of the audit was to determine whether USAID‟s ASHA office managed its grants
portfolio in accordance with industry best practices. In planning and performing the audit, we
assessed the office‟s management controls related to its program. The controls included the
performance management plan, data quality assessments, site visit reports, program progress
reports, and e-mails and memos documenting decisions reached between ASHA staff and the
contractor and between ASHA staff and grantees.

OIG conducted the audit in Washington, D.C., from June 7, 2011, to January 17, 2012. Our
audit focused on grants awarded during fiscal years 2007 through 2010 and activities performed
by both USAID and the grants management contractor.

Methodology
To answer the audit objective, the audit team conducted interviews with USAID‟s ASHA
personnel, contractor employees, and subcontractors. The audit team also conducted two off-
site staff interviews, one with the contractor‟s president at the company‟s headquarters in
Maryland and the other with a consulting engineer in Florida.

To obtain an understanding of the regulations that governed the ASHA program, the team
reviewed criteria, including Section 214 of the Foreign Assistance Act of 1961 and OMB
Circular A-110, as well as legal decisions by USAID‟s General Counsel.        To review
management control standards, the audit reviewed:

   The American Schools and Hospitals Abroad Procedures Manual.

   Elliot Lewis, “Managing Grants for Success,” Journal of Public Inquiry, Fall-Winter 2008-
   2009.

   GAO, Standards for Internal Control in the Federal Government, November 1999.

   ADS Chapter 303, “Grants and Cooperative Agreements to Non-Governmental
   Organizations.”

   The Chief Financial Officers Act of 1990.




                                                                                               15
                                                                                 Appendix I


The audit team gained an understanding of the procedures for soliciting applications and for
reviewing, selecting, and monitoring grants. In addition, we reviewed ASHA‟s procedures for
obligating funds and processing benefit payments.

To determine the accuracy of ASHA‟s financial information, the team compared records in
ASHA‟s grants management system with those in USAID‟s Phoenix system. The audit team
also compared ASHA‟s financial data with records from grantees by independently asking grant
recipients to provide grant amounts, total expenditures, and balances as of March 31, 2011.




                                                                                         16
                                                                                      Appendix II



MANAGEMENT COMMENTS


February 29, 2012

MEMORANDUM

TO:            Steven Ramonas, IG/A/PA Director

FROM:          Tamra Halmrast-Sanchez, DCHA/ASHA Director /s/

SUBJECT:       Management Comments to Draft Audit Report No. 9-000-12-00X-P


Thank you for affording the Bureau for Democracy, Conflict and Humanitarian Assistance
(DCHA) the opportunity to respond to the draft audit of USAID‟s American Schools and
Hospitals (DCHA/ASHA) program. DCHA concurs with the audit findings and recommendations
and we are working diligently to address the weakness identified in the report. Specifically we
have responded to the seven recommendations outlined in the draft OIG audit report dated
February 15, 2012, by taking the following action or actions:

RECOMMENDATIONS AND ACTIONS:

1. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad review its
   control environment and present the Bureau for Democracy, Conflict and Humanitarian
   Assistance with a plan for successfully managing the program‟s grant portfolio and
   achieving its program objectives.

        RESPONSE: DCHA/ASHA has reviewed its structure; including technical support
        provided through its current institutional contract and is adjusting the structure and
        realigning duties to meet current program needs. ASHA is working with DCHA senior
        leadership to attempt to secure additional resources to assist in the management of its
        grant portfolio.

        Completion date for the ASHA organizational review and restructuring is July 31, 2012.

2. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad clearly
   define grants management authorities and responsibilities and formally delegate them to
   appropriate staff to serve as agreement officer‟s technical representatives.

        DCHA/ASHA has taken its first step in reorganizing the office to meet the requirements
        of a large grant portfolio. Instead of several staff members assigned to oversee



                                                                                                  17
                                                                                    Appendix II


       individual parts of the grants portfolio; the office has assigned two staff members as
       Agreement Officer‟s Technical Representatives (AOTRs) and split the portfolio by
       regions. The AOTRs are now responsible for ASHA grants from opening/award to close-
       out, which should eliminate confusion as to whom has responsibility over a particular
       grant, thus improving grant management, oversight, and pipeline administration.

       AOTR delegation letters for all active grants were signed by the AOTRs and the
       Agreement Officer (AO) by December 15, 2011.

3. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad, in
   conjunction with the Office of General Counsel, clearly determine which federal regulations
   and agency directives are applicable to the American Schools and Hospitals Abroad
   program and document any exclusions or exemptions.

       RESPONSE: DCHA/ASHA has been working with the GC to clearly determine which
       federal regulations and agency directives are applicable to the American Schools and
       Hospitals Abroad program and document any exclusions or exemptions. These
       regulations will be included in the revised ASHA procedures and policy handbook.

       The GC has provided DCHA/ASHA with an updated list of applicable federal regulations
       and agency directives that we are using for FY2012 grant cycle.

4. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad develop
   and implement policies and procedures that are consistent with applicable federal
   regulations, Agency directives, and best practices to promote adequate grants
   management.

       RESPONSE: DCHA/ASHA has undertaken a major review and re-write of its policies
       and procedures in close coordination with GC and in conjunction with ADS 303 and 201.
       We anticipate the updated procedures, which will incorporate updated policies, to be
       completed by June 30, 2012. This will allow us to include “lessons learned” from the
       current grant cycle.

       DCHA/ASHA will continue to utilize the Grants.gov website as the means to solicit
       applications.

       For the review of FY2012 grant applications, the majority of the reviewers on the
       technical review committees were USAID direct-hire staff, in accordance with ADS
       303.3, and DCHA/ASHA reviewed all proposed committee members to ensure they were
       qualified to perform the review function. The new procedure manual will reflect this
       change.

       DCHA/ASHA, in accordance with ADS 303.3, has started to conduct a systemized
       approach to the pre-award survey. We are developing a list of grantees and determining
       which have had a pre-award, A-133 and post award survey. As part of the FY2012
       application review, we will include a review of the A-133 as part of their past-


                                                                                              18
                                                                                       Appendix II


       performance and as a factor for future selections. Our goal is to complete the matrix of
       grantees and the determination of completion of pre-award, A-133 audits and post award
       surveys by July 30, 2012.

       All FY2011 grants include a memorandum of negotiation (Neg Memos) in their files.
       DCHA/ASHA received samples of Neg Memos from M/OAA as a guide as we continue
       to refine our Neg Memos for the FY2012 cycle. This will be incorporated into the
       procedures manual as a normal business process.

       The close-out of grants is a high priority for the office; the AOTRs, the Grants
       Management Specialist and the ASHA Director have developed a plan of action for
       addressing this issue. Our goal is to have all grants that have officially ended closed-out
       and deobligated by September 30, 2012. We are also in the process of retiring 26 boxes
       of completed grants, this will also alleviate some of the confusion (and provided needed
       space) caused by having the files remain in active status.

5. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad
   implement a grants management system that will enable the office to capture accurate,
   timely and useful information to facilitate proper grants management.

       RESPONSE: DCHA/ASHA and its support contractor are reviewing the data
       management systems currently in use to capture information useful in grant
       administration. The support contractor is updating the data management system to
       accurately record and report on grant financial and programmatic data. Our goal is to
       have the data in the new data management system to be reviewed and corrected by
       June 30, 2011.

6. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad develop
   and implement a plan to periodically validate the information in its grants management
   system for completeness and accuracy.

       RESPONSE: DCHA/ASHA and its support institutional contractor have had a series of
       meetings focused on reviewing the process of entering data and the various systems
       employed by USAID and the types of information captured. The goal was to identify
       areas of duplication and gaps in the ASHA‟s system and develop a plan to address the
       findings. We also developed protocols for entering information, i.e., who would enter
       what information and how, and how and when would the data be validated. It was also
       agreed that the AOTR would validate the information in the system on a monthly basis,
       as would the Director, starting immediately.

7. RECOMMENDATION: That the Office of American Schools and Hospitals Abroad develop
   and implement a monitoring plan that (1) clearly outline who can be designated as an
   agreement officer‟s technical representative and the roles and responsibilities of the
   representatives; (2) systematically identify the most appropriate grantees for site visits using
   programmatic and financial risk factors; and (3) actively solicit overseas missions to help



                                                                                                 19
                                                                                        Appendix II


   monitor and evaluate grantee performance, including site visits and liaison, with the
   recipients.

       RESPONSE: DCHA/ASHA has designated AOTRs and has held follow-on meetings
       with the institutional support contractor on the roles and responsibilities that are included
       in that designation. The grantees have also received written documentation on who is
       their AOTR and at the upcoming DCHA/ASHA conference March 20-22, 2012 we will
       train and inform our partners on the new operating procedures being implemented by
       ASHA.

       DCHA/ASHA management has reviewed the list of active grants, identifying grants that
       have recently been visited, grants that are experiencing problems and grants that are
       programmatic and financial risks. A tentative list for monitoring visits has been approved
       and site visits will be set according to needs for FY2012. This will be on-going process.

       DCHA/ASHA has reached out to the regional bureaus and missions requesting support
       on monitoring of activities. For construction grants, EGAT has agreed to provide
       monitoring support. A site visit form has also been developed and shared with the
       regional bureaus, affected Missions and EGAT. We will continue to look for ways to
       work with other parts of the USG to ensure monitoring of our grants.

       DCHA/ASHA has reached out to PPL/LER to update the current methods in which
       programs are monitored and evaluated. DCHA/ASHA has also invited PPL/LER to
       conduct a session on Monitoring and Evaluation at its 2012 Annual Conference and
       Workshop for program grantees and prospective grantees.

Based on the above, we believe that the actions taken by DCHA and ASHA have adequately
addressed the seven audit recommendations and show DCHA‟s and ASHA‟s commitment to
implement corrective measures towards the identified weaknesses. We hope that these actions
are sufficient to achieve final action on the recommendations.




                                                                                                 20
                                                                                         Appendix III


ANALYSIS OF REQUESTS FOR APPLICATIONS

Did RFAs contain the required provisions?

Provision                                       Section                                  No     Yes
            Section I: Funding Opportunity Description
    1       A general description of the proposed program                                        x
    2       A statement identifying the authorizing legislation                                  x
    3       Program eligibility requirements                                                     x
    4       Explanation of how the award will be administered                                    x
            Section II: Award Information
    5       An estimate of funds available                                                       x
    6       Anticipated start dates and performance periods of the programs                      x
    7       Indication of whether the award will be a grant or a cooperative agreement           x
            Section III: Eligibility Information
    8       Types of entities that may apply when there are eligibility restrictions             x
            A statement that USAID encourages applications from potential new
    9                                                                                            x
            partners
   10       Description of the cost-sharing element, if applicable                               x
   11       Other minimum qualification requirements                                             x
            Section IV: Application and Submission Information
   12       Information for a point of contact                                                   x
            A statement directing the applicant to submit the application using the
   13                                                                                     x
            Standard Form-424 series
   14       The required certifications in ADS 303.3.8.                                   x
   15       The required format for the application                                              x
            The deadline for submission of an application, how USAID makes the
   16       determination that an application has been received in time, and              x
            consequences of late submission
   17       Any funding restrictions                                                             x
            A statement regarding whether the award will or will not allow the
   18                                                                                     x
            reimbursement of preaward costs
   19       Other submission requirements                                                        X
            Section V: Application Review Information
            The criteria that USAID will use to evaluate applications, including an
   20                                                                                     x
            indication of their relative importance
            A clear statement of how USAID evaluates cost sharing as part of the
   21                                                                                            x
            review process
   22       A description of the review and selection process                                    x
            Section VI: Award and Administration Information
            Indication of what a successful applicant can expect to receive following
   23                                                                                     x
            selection
   24       A statement identifying the standard provision and the deviation              x
   25       General information on all reporting requirements                                    x
            Section VII: Agency Contacts
   26       Point(s) of contact for questions while the funding opportunity is open              x



                                                                                                  21
                                                                                   Appendix III


Provision                                    Section                               No     Yes
            Section VIII: Other Information
            A statement that USAID reserves the right to fund any or none of the
   27                                                                               x
            applications submitted




                                                                                            22
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
